No. 19-670
Arnold Fleck v. Joe Wetch et al.,
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus
Curiae of Pacific Legal Foundation, Cato Institute and Atlantic Legal
Foundation In Support of Petitioner contains 3,581 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 19, 2019.
DEBORAH J. LAFETRA
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
E-mail: DLaFetra@pacificlegal.org
Counsel for Amicus Curiae of
Pacific Legal Foundation

